United States Department of Agriculture
Office of Inspector General




Executive Order 13520, Reducing
Improper Payments - Fiscal Year 2012
High-Dollar Report Review




                                          Audit Report 50024-0003-11
                                          August 2013
                                                  Executive Order 13520,
                                       Reducing Improper Payments—Fiscal Year 2012
                                         High-Dollar Overpayment Report Reviews

                                                   Audit Report 50024-0003-11
What Were OIG’s
Objectives

Our objectives were to review
USDA’s quarterly high-dollar
reports to assess the level of
risk associated with the
applicable programs,             OIG reviewed information from USDA’s
determine the extent of
oversight warranted, and
                                 fiscal year 2012 quarterly reports on high-
provide the agency head with     dollar overpayments made by programs
recommendations, if any, for     susceptible to significant improper
modifying the agency’s
recovery and corrective action
                                 payments.
plans.

What OIG Reviewed                What OIG Found

We reviewed USDA’s fiscal        To intensify efforts to eliminate payment error, waste, fraud, and
year 2012 quarterly reports on   abuse in Federal programs, the President issued Executive Order
high-dollar overpayments,        13520, “Reducing Improper Payments.” The Executive Order
interviewed USDA officials,      requires the Office of Inspector General (OIG) to review the
including officials with the     Department of Agriculture’s (USDA) quarterly high-dollar
7 component agencies             overpayment reports and make recommendations, as necessary, to
administering USDA’s             agencies’ plans to recover and prevent high-dollar overpayments.
16 high-risk programs, and
evaluated supporting             We found that in the third year of reporting, USDA reported more
documents they provided.         comprehensive information about high-dollar overpayments than it
                                 did in previous years. Specifically, due to improved reporting
What OIG Recommends              oversight and processes, USDA reported 239 overpayments, totaling
                                 approximately $20.3 million in fiscal year 2012. This represents an
Provide additional oversight
                                 increase of 67 percent over the number of overpayments reported the
over component agencies’
                                 previous year. However, we determined that the quarterly reports
processes to ensure component
                                 included errors and were published up to 102 days after the due date.
agencies’ high-dollar
                                 This occurred because, although agency chief financial officers
overpayment reports comply
                                 certified that information was accurate and met applicable criteria,
with Departmental high-dollar
                                 component agencies’ submissions required substantive review by the
reporting guidance.              Office of the Chief Financial Officer to ensure USDA followed the
                                 high-dollar reporting guidance appropriately and that only payments
                                 that were supposed to be reported were included. Without accurate
                                 and timely reporting, the effects of USDA’s actions or strategies to
                                 eliminate the errors causing high-dollar overpayments are not fully
                                 known.

                                 USDA’s Office of the Chief Financial Officer agreed with our
                                 recommendation.
                             United States Department of Agriculture
                                    Office of Inspector General
                                      Washington, D.C. 20250



DATE:           August 22, 2013

AUDIT
NUMBER:         50024-0003-11

TO:             Jon M. Holladay
                Chief Financial Officer
                Office of the Chief Financial Officer

ATTN:           Kathy Donaldson
                Audit Liaison Officer
                Planning and Accountability Division

FROM:           Gil H. Harden
                Assistant Inspector General for Audit

SUBJECT:        Executive Order 13520, Reducing Improper Payments—Fiscal Year 2012
                High-Dollar Report Review


This report presents the results of the subject audit. Your written response to the official draft report,
dated August 15, 2013, is included in its entirety at the end of the report. Excerpts from your
response and the Office of Inspector General’s position are incorporated in the relevant sections of
the report.

Based on your response, we accept management decision for the recommendation in the report, and
no further response to us is necessary. In accordance with Departmental Regulation 1720-1, all final
actions need to be completed within 1 year of each management decision to preclude them being
listed in the Department’s annual Agency Financial Report. Please follow your internal agency
procedures in reporting final action.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions. This report contains publically available information
and will be posted in its entirety to our website (http://www.usda.gov/oig) in the near future.
Table of Contents

Background and Objectives ................................................................................ 1
Section 1: Compliance with High-Dollar Overpayment Reporting
Requirements ....................................................................................................... 3
Finding 1: USDA Needs to Take Further Actions to Improve Reporting on
High-Dollar Overpayments ................................................................................. 3
         Recommendation 1 .................................................................................... 6
Scope and Methodology ....................................................................................... 7
Abbreviations ....................................................................................................... 8
Exhibit A: USDA’s Programs Susceptible to Significant Improper Payments 9
Exhibit B: Summary of USDA’s Reported Fiscal Year 2012 High-Dollar
Overpayments .................................................................................................... 10
Agency's Response ............................................................................................. 11
Background and Objectives 
Background

Executive Order 13520 (Executive Order) is intended to assist Federal agencies in reducing
improper payments.1 It provides a comprehensive set of policies and a focus on identifying and
eliminating the highest improper payments through increased transparency and improved agency
accountability. The Office of Management and Budget (OMB) issued implementing guidance to
agencies for reporting high-dollar overpayments.2 Agencies must report quarterly on any high-
dollar overpayments identified in programs that are susceptible to significant improper payments
(“high-risk” programs).3 Agencies are to submit the quarterly reports to their respective Office
of Inspector General (OIG) and the Council of the Inspectors General on Integrity and
Efficiency. OIG is to review them and make recommendations, as necessary, to agencies’ plans
to recover and prevent high-dollar overpayments.

In fiscal year 2012, the Department of Agriculture (USDA) administered 16 programs OMB
identified as high risk. Currently, seven component agencies administer these programs: Farm
Service Agency (FSA), Commodity Credit Corporation, Food and Nutrition Service (FNS),
Forest Service, Natural Resources Conservation Service (NRCS), Risk Management Agency
(RMA), and Rural Development. Exhibit A provides a list of the relevant programs by agency.
Exhibit B lists the number and sum of fiscal year 2012 high-dollar overpayments for each
applicable program and agency. USDA reported a total of 239 high-dollar overpayments,
totaling approximately $20.3 million, made through these programs, which is an increase from
the 143 high-dollar overpayments, totaling approximately $11.7 million, USDA reported for the
previous year.

To be reportable as a high-dollar overpayment, an overpayment is identified as being made for at
least 50 percent more than the correct amount, and as exceeding a certain threshold. The
Executive Order defines the threshold for a reportable overpayment as more than $5,000 in total
to an individual for the quarter and as more than $25,000 in total to an entity for the quarter.
Reportable overpayments can be made as a single payment or in cumulative payments for the
quarter.4

The Secretary of Agriculture has delegated responsibility for coordinating and submitting
USDA’s high-dollar overpayment reports to the Office of the Chief Financial Officer (OCFO).
To assist OCFO in meeting reporting requirements, the seven component agencies administering
USDA’s high-risk programs must submit high-dollar overpayments data, in accordance with
OMB guidance, for inclusion in the Department-level quarterly reports. In addition to
submitting the quarterly reports to OIG and to the Council of the Inspectors General on Integrity


1
  74 Federal Register 62201, Executive Order 13520, Reducing Improper Payments (November 20, 2009).
2
  OMB Memo M-11-16, Issuance of Revised Parts I and II to Appendix C of OMB Circular A-123 (April 14, 2011).
3
  A high-risk program is any program susceptible to significant improper payments based on the criteria outlined in
OMB Circular A-123, Parts I and II, Appendix C (April 14, 2011).
4
  OMB Circular A-123, Parts I and II, Appendix C (April 14, 2011).

                                                                        AUDIT REPORT 50024-0003-11              1
and Efficiency, the Department publishes its quarterly high-dollar reports on its website at
http://www.ocfo.usda.gov/qhd_reporting.html.

Objectives

As required by the Executive Order, we reviewed USDA’s quarterly reports on high-dollar
overpayments. The objective of our audit was to assess the level of risk associated with the
applicable programs, determine the extent of oversight warranted, and provide the Secretary of
Agriculture with recommendations, if any, for modifying USDA’s recovery and corrective action
plans.




2    AUDIT REPORT 50024-0003-11
Section 1:  Compliance with High-Dollar Overpayment Reporting 
Requirements 
Finding 1: USDA Needs to Take Further Actions to Improve Reporting on High-Dollar
Overpayments

Although USDA’s fiscal year 2012 reporting delivered more comprehensive information about
high-dollar overpayments than it did in its first 2 years of reporting, we found that USDA can
take further steps to improve transparency and agency accountability for identifying and
eliminating the highest payment errors. We noted that USDA’s fiscal year 2012 quarterly reports
on high-dollar overpayments and related actions did not always provide accurate and timely
information; the reports included errors and were published up to 102 days after the due date.
This occurred because, although agency chief financial officers certified that information was
accurate and met applicable criteria, component agencies’ submissions required substantive
review by OCFO to ensure USDA followed the high-dollar reporting guidance appropriately and
that only payments that were supposed to be reported were included in the Department’s report.
Without accurate and timely reporting, neither the Department nor OMB can measure the
effectiveness of USDA component agencies’ actions or strategies to eliminate the errors causing
high-dollar overpayments.

The Executive Order requires agencies to report on high-dollar overpayments by submitting
reports on identified overpayments to OIG within 30 days of the quarter’s end. 5 OMB set
specific thresholds for reportable high-dollar overpayments. OMB also requires that the quarterly
reports: list all high-dollar overpayments the agency identified during the quarter; and include
information on overall agency actions and strategies to recover and prevent the overpayments,
along with other specific information.6 OCFO provides Departmental guidance to agencies on
preparing and submitting the quarterly high-dollar overpayment report.

Our review identified that component agencies provided OCFO with inaccurate information
related to high-dollar overpayments and that USDA published inaccurate information from four
component agencies: FSA, NRCS, Rural Development, and RMA. Further, six out of the seven
component agencies continued to struggle with report timeliness. The following sections
provide further details.

        USDA Reported Incorrect Information About High-Dollar Overpayments

        OCFO’s review, comment, and response process significantly minimized the amount of
        inaccurate information that USDA published. However, OCFO cannot identify and
        prevent all errors that arise in component agencies’ administrative processes. USDA
        ultimately published inaccurate information related to some overpayments because the
        administrative processes of four component agencies (FSA, NRCS, Rural Development,
        and RMA) did not always ensure that the agencies applied OCFO guidance correctly and

5
 74 Federal Regulation 62201, Executive Order 13520, Reducing Improper Payments (November 20, 2009).
6
 OMB Circular A-123, Appendix C, Part III, Requirements for Implementing Executive Order 13520: Reducing
Improper Payments, M-10-13 (March 22, 2010).

                                                                    AUDIT REPORT 50024-0003-11             3
        adequately reviewed information for accuracy before officials certified agency
        submissions.

        For instance, FSA did not adequately review information, including its supporting
        documentation, before submitting its certified reports to OCFO. Our review of
        documents related to OCFO’s review process disclosed that in at least 16 instances, FSA
        submitted inaccurate information related to overpayments. For example, FSA submitted
        payments that did not meet the criteria, payments individually that should have been
        reported cumulatively, and reports with calculation errors. OCFO and FSA addressed
        these issues during the review process and did not publish these errors. However, when
        OIG reviewed a sample of documents supporting FSA’s reported overpayments, we
        found that at least ten were published inaccurately.7 For eight of these reported
        overpayments, personnel at field offices entered information into the accounting system
        that indicated to headquarters personnel that FSA had made overpayments to both entities
        and associated individuals. However, FSA had not made overpayments to the individuals
        and should not have included them on the high-dollar report. Additionally, FSA
        inaccurately reported 2 overpayments of $45,096 each. For these two, the Departmental
        report indicated that the payments should not have been made, when in fact, the
        recipients should each have been paid $2,048. FSA stated that, with the revised and
        robust internal controls process in place, FSA’s administrative review process should
        mitigate these types of incidents in the future.

        Also, NRCS did not adequately review its supporting documentation related to high-
        dollar overpayments. Our review of NRCS’ supporting documents disclosed that NRCS
        did not always apply OCFO high-dollar overpayment reporting guidance correctly.8 For
        example, NRCS did not combine three overpayments (of $176,883, $176,883, and
        $109,558) made to the same entity as cumulative payments of $463,324. Further, in at
        least two instances, NRCS did not accurately report its actions. In one instance, although
        NRCS had granted a cost recovery waiver to a recipient in the amount of $8,658, NRCS
        proceeded to report that it had sent the recipient a demand letter. In another instance,
        NRCS reported the same overpayment of $11,172 twice. This occurred because NRCS’
        internal reviews did not adequately validate information before submitting it to OCFO.

        Additionally, we noted issues related to Rural Development’s reporting on high-dollar
        overpayments. For example, we noted that in one instance, Rural Development
        submitted an item that should not have been reported. OCFO informed Rural
        Development that the item did not meet the high-dollar threshold. Also, during our
        review of supporting documents, we identified that in two instances the overpayment
        amounts that Rural Development reported did not correspond with supporting
        documentation.9 These errors occurred because Rural Development did not yet have
        formal processes fully in place for its high-dollar overpayment reporting during the
        period of our review. As identified in our audit of fiscal year 2011 high-dollar reporting,
        Rural Development had not established a process for reporting high-dollar overpayments

7
  We reviewed a non-statistical sample of 49 out of FSA’s 95 total reported high-dollar overpayments.
8
  We reviewed a non-statistical sample of 26 out of NRCS’ 53 total reported high-dollar overpayments.
9
  We reviewed a non-statistical sample of 9 out of Rural Development’s 18 total reported high-dollar overpayments.

4     AUDIT REPORT 50024-0003-11
        because it had considered the payments to individual participants to fall below the high-
        dollar threshold.10 Rural Development concurred with our conclusion that it should
        establish a process, and began reporting high-dollar overpayments during fiscal year
        2012. Rural Development stated that it was refining its process to identify and report
        high-dollar overpayments and noted that the decentralized nature of Rural Development’s
        administrative structure impacts the complexity of the process.

        Finally, we noted an inaccuracy in RMA’s high-dollar overpayment reporting. Our
        review of supporting documents identified that USDA’s report included a
        $70,560 overpayment that was not, in fact, made.11 At the time RMA initially pulled data
        used to identify the high-dollar overpayment amount, there was a compliance reporting
        system data entry error that the responsible staff subsequently corrected in the database.
        RMA emphasizes that it routinely reminds its offices of the importance of data accuracy,
        and has allocated resources to try to preclude as many of these kinds of errors as possible.

        USDA Continued to Struggle with Report Timeliness

        As in fiscal years 2010 and 2011, although required to submit reports to OIG within
        30 days after the end of the quarter, USDA did not submit its fiscal year 2012 quarterly
        reports on high-dollar overpayments timely. We received the reports from 24 to 102 days
        after the required due date: specifically, 24 days for the first quarter, 52 days for the
        second, 102 days for the third, and 94 days for the fourth. This occurred because six of
        the component agencies submitted reports to OCFO late. With agencies submitting up to
        164 days after the OCFO-required due date, and, given that submissions then required
        substantive OCFO reviews, USDA overpayments were not reported during the
        appropriate quarters.

        When we discussed report timeliness with agencies, officials in the component agencies
        generally stated that budget constraints, resource limitations, and the demands of other
        improper payment and financial statement reporting requirements impacted their
        reporting on high-dollar overpayments. We emphasize that untimely reporting may not
        fully reflect USDA’s intensified efforts to eliminate the highest improper payments in its
        programs through increased accountability and transparency over high-dollar
        overpayments.

Overall, we generally attributed USDA’s inaccurate and untimely reporting to issues related to
the inherent challenges of managing technical reporting processes that involve different levels of
personnel across different and decentralized reporting structures, or to maintaining accurate data
across a large and diverse organization. In fiscal year 2013, OCFO revised Departmental
guidance to provide additional clarification on reporting cumulative payments, provided training
on reporting high-dollar overpayments, and requested agencies to provide their documented
high-dollar reporting process to OCFO for review. OCFO stated it plans to review and provide
feedback to agencies on their reporting processes, and that it plans to formulate a strategy to

10
   Audit report 50024-0002-11, Executive Order 13520, Reducing Improper Payments – Fiscal Year 2011 High-
Dollar Report Review (September 28, 2012).
11
   We reviewed a non-statistical sample of 10 out of RMA’s 70 total reported high-dollar overpayments.

                                                                    AUDIT REPORT 50024-0003-11              5
meet the report requirements timely. We are not, therefore, making recommendations to
individual agencies on the accuracy and timeliness of reporting. OCFO stated that, in addition to
these changes, it can work with agency chief financial officers to reduce the need for extensive
OCFO reviews. To improve the accuracy and timeliness of reporting, OCFO should also work
with agencies to document their reporting processes and identify areas for improvement.

Recommendation 1

Provide additional oversight over component agencies’ processes to ensure component agencies’
high-dollar overpayment reports comply with Departmental high-dollar reporting guidance.

Agency Response

OCFO officials concurred with this recommendation and stated that OCFO sent a memorandum
to the agency chief financial officers with high risk programs requesting each agency to
document and certify its process for identifying and reporting high-dollar overpayments, and
provide the documented process to OCFO for review and approval.

OIG Position

We accept OCFO’s management decision.




6    AUDIT REPORT 50024-0003-11
Scope and Methodology 
Our review was for the limited purpose described in the objectives and would not necessarily
identify all deficiencies in internal controls for determining high-dollar overpayments. We
reviewed USDA’s fiscal year 2012 quarterly reports on high-dollar overpayments. To
accomplish our objectives, we met with OCFO officials in Washington, D.C., and held
teleconferences with officials from the 7 component agencies administering the 16 high-risk
programs responsible for reporting high-dollar overpayments. We interviewed these officials
and evaluated a non-statistical sample of supporting documentation they provided. Fieldwork
for this review was performed between December 2012 and June 2013. We followed applicable,
generally accepted government auditing standards in performing this review, and we believe the
evidence obtained provides a reasonable basis for our conclusions, based on our objectives.




                                                           AUDIT REPORT 50024-0003-11        7
Abbreviations 
Executive Order     Executive Order 13520

FNS                 Food and Nutrition Service

FSA                 Farm Service Agency

NRCS                Natural Resources Conservation Service

OCFO                Office of the Chief Financial Officer

OIG                 Office of Inspector General

OMB                 Office of Management and Budget

RMA                 Risk Management Agency

USDA                Department of Agriculture




8     AUDIT REPORT 50024-0003-11
  Exhibit A:  USDA’s Programs Susceptible to Significant Improper 
  Payments 
  USDA’s 16 current high-risk programs, by the 7 component agencies that administer them.
USDA Component
                                                         High-Risk Program
    Agency
                    Conservation Reserve Program
                    is a voluntary program available to agricultural producers to help them use environmentally
                    sensitive land for conservation benefits.
                    Direct and Counter-Cyclical Program
                    provides payments based on yields and market prices to eligible producers on farms.
                    Loan Deficiency Payments Service
                    is available to eligible participants who do not want to participate in the MAL Marketing
      FSA           Assistance Loan Program.
                    Milk Income Loss Contract Program
                    compensates dairy producers when domestic milk prices fall below a specified level.
                    Miscellaneous Disaster Programs
                    provide assistance through various programs to participants when there are disasters.
                    Noninsured Assistance Program
                    provides financial assistance to producers of non-insurable crops when low yields, loss of
                    inventory, or prevented planting occur due to a natural disaster.
                    Child and Adult Care Food Program
                    provides nutritious meals to participants in day care facilities, such as child care centers, day care
                    homes, and adult day care centers.
                    National School Lunch Program
                    provides cash subsidies and donated foods from USDA for each meal schools serve.
                    School Breakfast Program
      FNS           is a federally assisted meal program where participating school districts receive cash subsidies
                    for each breakfast they serve.
                    Special Supplemental Nutrition Program for Women, Infants, and Children
                    provides supplemental foods and other health services to low-income participating women and
                    children up to the age of 5 years.
                    Supplemental Nutrition Assistance Program
                    provides low income families benefits to purchase food from approved retailers.
  Forest Service    Wildland Fire Suppression Management
                    protects life, property, and natural resources on National Forest System, State, and private lands.
   FSA and          Marketing Assistance Loan Program
Commodity Credit    provides an influx of cash when market prices are low, which allows the producer to delay the
  Corporation       sale of the commodity until more favorable market conditions emerge.
                    Farm Security and Rural Investment Act Programs
     NRCS           provide products and services that enable people to be good stewards of the Nation’s soil, water,
                    and related natural resources on non-Federal lands.
      RMA           Federal Crop Insurance Corporation Program Fund
                    provides insurance and risk management strategies to American producers.
                    Rental Assistance Program
Rural Development   provides an additional source of support for households in rural areas with income too low to pay
                    the basic rent from their own resources.


                                                                         AUDIT REPORT 50024-0003-11                 9
Exhibit B:  Summary of USDA’s Reported Fiscal Year 2012 High-
Dollar Overpayments 
Exhibit B lists the number and sum of high-dollar overpayments reported in fiscal year 2012, by
component agency and high-risk program.
                                                                                                    Sum of
                                                                           Number of
                                                                         Reported High-            Reported
     USDA Agency                    High-Risk Program(s)
                                                                             Dollar               High-Dollar
                                                                         Overpayments            Overpayments
                             Wildland Fire Suppression
 1. Forest Service                                                                3                      $174,809
                             Management Program
                             Direct and Counter-Cyclical
 2. FSA                                                                           17                     $335,939
                             Program
 3. FSA                      Miscellaneous Disaster Programs                      46                  $1,187,109
 4. FSA                      Noninsured Assistance Program                        24                     $584,481
 5. FSA/Commodity            Marketing Assistance Loan
    Credit                                                                        8                      $434,964
                             Program
    Corporation
                             Five total programs, including
                             Child and Adult Care Food
                             Program; National School Lunch
                             Program; School Breakfast
 6. FNS12                    Program; Special Supplemental                        0                                 $0
                             Nutrition Program for Women,
                             Infants, and Children; and
                             Supplemental Nutrition Assistance
                             Program
                             Farm Security and Rural
 7. NRCS                                                                          53                  $2,787,032
                             Investment Programs
                             Federal Crop Insurance
 8. RMA                                                                           70                 $14,651,081
                             Corporation Program Fund
 9. Rural                    Rental Assistance Program                            18                     $138,196
    Development
 TOTAL                                                                           239                 $20,293,611




12
  FNS submitted statements certifying that it did not identify any high-dollar overpayments meeting the criteria
outlined in the Quarterly High Dollar Overpayments Report Guidance and was therefore providing a negative report.

10      AUDIT REPORT 50024-0003-11
Agency's Response 




                   USDA’S
               OFFICE OF THE
         CHIEF FINANCIAL OFFICER’S
         RESPONSE TO AUDIT REPORT




                         AUDIT REPORT 50024-0003-11   11
                                                                                       August 15, 2013
United States
Department of
Agriculture

Office of the Chief
                      TO:          Gil H. Harden
Financial Officer                  Assistant Inspector General
                                    for Audit
1400 Independence
Avenue, SW
                      FROM:        Jon M. Holladay                                     -S- Jon M. Holladay -
Washington, D.C.
20250
                                   Deputy Chief Financial Officer

                      SUBJECT:     Management Response to Executive Order 13520, Reducing Improper Payments-
                                   Fiscal Year 2012 High-Dollar Report Review, Audit No. 50024-0003-11

                      This responds to your request for management’s response to the draft report audit
                      recommendations in Audit Report No. 50024-0003-11. The management response is attached.

                      If you have any questions or need additional information, please contact our office at
                      (202) 720-5539 or have a member of your staff contact Kathy Donaldson at (202) 720-1893.

                      Attachment




                                               An Equal Opportunity Provider and Employer
                 Executive Order 13520, Reducing Improper Payments,
             Fiscal Year 2012 High-Dollar Report, Audit No. 50024-0003-11


Recommendation 1

Provide additional oversight over component agencies’ processes to ensure component agencies’
high-dollar overpayment reports comply with Departmental high-dollar reporting guidance.

Management Response: The Office of the Chief Financial Officer (OCFO) concurs with the
Office of the Inspector General’s finding that agencies misinterpreted or deviated from the
requirement of the Office of Management and Budget and OCFO guidance which resulted in
omission and/or errors in agencies submissions.

OCFO sent a memorandum to the agency chief financial officers with high risk programs
requesting each agency to document and certify its process for identifying and reporting high-
dollar overpayments; and provide the documented process to OCFO for review and approval.
A template was provided to the agencies requesting information on:

   1. The steps and their sequence for the identification, verification, and reporting of high-dollar
      overpayments;
   2. Agency organizational units and geographical locations involved in identifying, verifying,
      and reporting high-dollar overpayments;
   3. Agency’s key controls to ensure the accuracy and completeness of:
         a. The formula used for calculating high-dollar overpayments;
         b. Identifying and reporting overpayments;
         c. Reasons for overpayments;
         d. Actions to recover overpayments; and
         e. Actions and strategies to prevent overpayments.
   4. How the information obtained from the high-dollar identification and reporting benefits the
      agency;
   5. Agency issues, problems and/or barriers in identifying and reporting high-dollar
      overpayments; and
   6. Copies of the agency’s internal procedures, guidance and instructions for identifying and
      reporting on high-dollar overpayments.

Date Corrective Action will be Completed: August 31, 2013

Responsible Organization: Fiscal Policy Division, OCFO




                                     An Equal Opportunity Provider and Employer
 To learn more about OIG, visit our website at
 www.usda.gov/oig/index.htm
 How To Report Suspected Wrongdoing in USDA Programs

 Fraud, Waste and Abuse
 e-mail: USDA.HOTLINE@oig.usda.gov
 phone: 800-424-9121
 fax: 202-690-2474

 Bribes or Gratuities
 202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).
To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the Assistant
Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250-9410, or call
toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English Federal-relay) or
(800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
